~UNION

Visa® Credit Card Agreement and Disclosure
This Agreement and Disclosure Statement contains the terms and
disclosures which apply to your Visa Credit Card Account ("Account")
with Seven Seventeen Credit Union, Inc.
Notice: See reverse side for important information regarding your
rights to dispute billing errors.
1. Meaning of Words. The following words have the following
meanings in this Agreement and in the monthly billing statement mailer
hereunder:
(a) "Agreement" means the Visa Credit Card Agreement and
Disclosure furnished by us.
(b) "We", "Us" and "Ours" mean Seven Seventeen Credit Union,
Inc., (7 17 CU) Warren, Ohio.
(c) "You" and "Your" means each person who signs this Agreement,
or Visa Credit Card Application.
(d) "Card" means any Visa credit card and any duplicates and
renewals we issue to you.
(e) "Account" means your Visa Credit Card Line of Credit Account
with us that contains a record of all purchases and cash advances made
by you under this Agreement.
(f) "Line of Credit" means the total dollar amount we approve for you
against which you may obtain cash advances under this Agreement.
(g) "Advance" means any credit extended to you under this
Agreement for any purchases or cash advances.
(h) "Cash Advance" means (i) any credit extended to you from us or
from any other institution that accepts the Card (ii) any withdrawal of
cash made by using your personal identification number ("PIN") at an
automated teller machine ("ATM") or other type of electronic terminal
that provides access to the Visa system, or (iii) the amount of any Visa
Convenience Check paid by us.
(i) "Visa Convenience Checks" means any check that may be issued
by us to you, from time to time, that directly accesses your Visa Credit
Card Line of Credit Account. The amount of any Visa Convenience
Check paid by us is posted as a Cash Advance under your Account.
2. How to Use This Account: You can purchase or lease goods and
services ("purchases") from a merchant up to your maximum credit limit
by presenting your Card and signing a sales slip for the amount of the
purchase. You may also use your Card:
(a) To obtain cash advances up to your maximum credit limit from
financial institutions that accept a Visa credit card;
(b) By use of pre-printed Visa convenience checks that we may issue
you from time to time;
(c) By making withdrawals with your Card at an ATM or other type
of electronic terminal that provides access to the Visa system; or
(d) By first selecting your Account to provide overdraft protection
for your Checking Account and by issuing checks or drafts, or the accrual
of any charges against your Checking or Money Market Checking
Account with Seven Seventeen Credit Union, Inc. in excess of its
balance. Advances will be made up to your maximum credit limit by
automatic transfer of funds directly into your predesignated Checking
Account(s) in multiples of $100. The fee for each transfer is $7.00.
3. Responsibility. If we issue you a Card you agree to pay all
advances under the Account plus FINANCE CHARGES arising from
the authorized use of the Card, a Visa convenience check and the Card
account. For example, you are responsible for charges made by yourself,
your spouse and minor children. You are also responsible for charges
made by anyone else to whom you give the Card, and this responsibility
continues until the Card is recovered. Your obligation to
pay the Account balance continues even though an agreement, divorce
decree, or other court judgment, to which we are not a party, may direct

you or one of the other persons responsible to pay the Account. If more
than one person signs this Agreement, you are jointly and severally
responsible for all charges on the Account.
4. Liability for Unauthorized Use. You, the cardholder, are not
liable for any unauthorized transaction that is processed over the Visa
network. You should notify us immediately in the event your Card is lost
or stolen or upon your discovery of a transaction which is the result of
fraudulent activity such as the unauthorized use of the account or the
Card. We reserve the right to impose liability on You, the cardholder, if
we determine that You were negligent in the handling of the account or
card.
5. Lost Card Notification. To report lost or stolen Visa® credit
cards 24 hours a day call 800-991-4965. To report lost or stolen cards
during normal business hours call 330-372-8100, 330-677-0001, 330492-1106, 330-298-0400 or 800-775-7741. For Visa Platinum Card
emergency assistance 24 hours a day call 800-VISA-911
(800-847-2911).
6. Credit Line: If we approve your application, we will establish a
self-replenishing Line of Credit for you and notify you of its amount
when we issue the Card. You agree not to let the Account balance exceed
this approved credit line. Each payment you make on the Account will
restore your credit line by the amount of the payment which is applied to
the principal balance owed on the Account. You may request an increase
in your credit line which must be approved by us. By giving you written
notice, we may reduce your credit line from time to time, or with good
cause, revoke your Card and terminate this Agreement. Good cause
includes your failure to comply with this Agreement, or our adverse
reevaluation of your credit worthiness. You may also terminate this
Agreement at any time, but termination by either of us does not affect
your obligation to pay the Account balance. The Card remains our
property and you must recover and surrender to us all Cards, and any
issued but unused Visa Convenience Checks, upon our request and upon
termination of this Agreement.
7. Credit Information. You authorize us to investigate your credit
standing when opening, renewing or reviewing your Account, and you
authorize us to disclose information regarding your Account to credit
bureaus and other creditors who inquire of us about your credit, to the
extent authorized by our bylaws.
8. Payments. We will deliver a statement every month showing the
previous balance comprised of purchases and cash advances, the current
transactions on the Account, the remaining credit available under the
credit limit, the new balance of purchases and cash advances, the total
new balance, the FINANCE CHARGE due to date, and the minimum
payment required. Each month you must pay at least the minimum
payment shown on your statement by the date specified on the statement
or no later than 25 days from the statement closing date, whichever is
later. If your statement says the payment is "Now Due," your payment is
due no later than 25 days from the statement closing date. You may pay
more frequently, pay more than the minimum payment or pay the Total
New Balance in full. If you make extra or larger payments, you are still
required to make at least the minimum payment each month your
Account has a balance (other than a credit balance).
Payment checks must be drawn on a financial institution or other
entity domiciled in the United States. Otherwise, posting of your
payment may be delayed if presentment of a check is drawn on a nonUnited States domiciled financial institution or entity. The payment will
not be credited to your account until the funds have been collected in
United States dollars. You also agree to allow the Credit Union to debit
your account for any collection of processing fees associated with
handling this payment.
The minimum payment for the Visa Platinum Rewards and Visa
Platinum card will be either Two percent (2%) of your total New Balance
or $10, whichever is greater or your total new balance, if it is less than

Ten Dollars ($10) plus any portion of the minimum payment(s) shown
on prior statement(s) which remains unpaid.
We also have the right to demand immediate payment of any
amount by which you are over your credit limit.
We will apply your minimum payment first to the FINANCE
CHARGE on balance transfers, cash advances and purchases, then to
fees, then to the principal balance of promotional cash advances, then to
the principal balance of promotional purchases, then to the principal
balances of purchases in the order they were posted to your Account, and
then to the principal balance of cash advances. Any amount in excess of
the minimum payment will be applied to the balance with the highest
ANNUAL PERCENTAGE RATE.
9. FINANCE CHARGES. You can avoid a FINANCE CHARGE
on purchases by paying the full amount of the New Balance of purchases
each month within 25 days of your statement closing date. Otherwise,
any unpaid New Balances of purchases and subsequent purchases from
the date they are posted to your Account will be subject to FINANCE
CHARGES. Cash advances, which include the amount of any Visa
convenience checks or balance transfers posted to your account, are
always subject to FINANCE CHARGES from the date they are posted
to your Account.
In addition to the ANNUAL PERCENTAGE RATE you will be
charged a transaction fee of 3% of the advance for each cash advance
with a minimum of $2.00 and a maximum of $15.00. For additional
details on fees and other charges, see paragraph 19.
A. See Rate Addendum for Rates regarding your account.
B. Any increase in the ANNUAL PERCENTAGE RATE will
take the form of additional payments shown as total minimum
payments on the statement.
C. The following information is applicable to each of our Visa
Credit Card Line of Credit Accounts:
The principal balances of purchases and cash advances are
determined each day during the statement period, beginning with the
principal portion of your previous balances, reduced by payments made
and credits we apply, and increased by purchases and cash advances
made and debit adjustments we make during the statement period. The
daily principal balances are totaled and divided by the number of days in
the statement period, to produce separate average daily principal balances
for purchases and cash advances to which the periodic rate is then
applied.
Any increase in the ANNUAL PERCENTAGE RATE will take the
form of additional payments shown as total minimum payments on the
statement.
10. Default. You will be in default if you fail to make any minimum
payment or other required payment by the date that it is due. You will be
in default if you break any promise you make under this Agreement. You
will be in default if you die, file for bankruptcy, or become insolvent,
that is, unable to pay your obligations when they become due. You will
be in default if you make any false or misleading statements in any credit
application or update of credit information. You will also be in default if
something happens which we believe may substantially reduce your
ability to repay what you owe. When you are in default we can demand
immediate payment of the entire amount you owe under this Agreement
without giving you advance notice. If immediate payment is demanded,
you will continue to pay interest, at the applicable interest rates in effect
under this Agreement, until what you owe has been repaid. If demand
for immediate payment has been made, the shares and deposits given as
security for payment under this Agreement can be applied towards what
you owe. We may also take appropriate action as authorized under the
Uniform Commercial Code to repossess any and all collateral pledged to
secure repayment under this Agreement. To the extent permitted by law,
you will also be required to pay our collection expenses, including court

costs and reasonable attorneys' fees. We can also exercise any other
rights given by law when you are in default.
11. Money Transfer Services. If you receive any transmittal amount
from any Money Transfer Service (MTS) provider, you agree not to
receive more than $2,500 per day or more than $10,000 per month. We
may increase or decrease these limits from time to time at our sole
discretion. We reserve the right to accept or reject any MTS request at
our sole discretion. Each transmittal amount that is sent to your Card
will generally be posted to your Card within two (2) Business Days after
we receive the Transmittal Amount from the Sender.
12. Using the Card. You may use the actual Card, Account number
and/or PIN to make transactions. You will retain the copies of the
transaction slips furnished to you in order to verify your monthly
statement.
13. Returns and Adjustments. Merchants and others who honor the
Card may give credit or returns or adjustments, and they will do so by
sending us a credit slip, which we will post to your Account. If your
credits and payments exceed what you owe us, we will hold and apply
this credit balance toward future purchases and Cash Advances, or if it
is one dollar or more, refund it on your written request or automatically
after three months.
14. Using Visa Convenience Checks. You may use your Visa
Convenience Checks, if available, as you would use your Card to obtain
a Cash Advance or to make a purchase or payment. Your Visa
Convenience Checks directly access your Account. All purchases,
payments and Advances made with a Visa Convenience Check and paid
by us are treated as Cash Advances hereunder and, except as otherwise
indicated, are subject to all terms of this Agreement pertaining to Cash
Advances and to the following additional terms:
A. No Visa Convenience Check may be used to make a payment on
your Account.
B. Only the person whose name appears on a Visa Convenience
Check may use them.
C. Visa Convenience Checks must be written in U.S. Dollars in an
amount not less than $100. Visa Convenience Checks may not be
certified.
D. We may return a Visa Convenience Check unpaid if there is not
enough available credit on your Account to pay it, if your
Account is in default, or if your Card or any Visa Convenience
Checks have been reported lost or stolen. A $35 fee will be
charged for each returned Visa Convenience Check unless it has
been reported lost or stolen.
E. If you are issued checks to access your account and you stop
payment on a check, your account will be charged $35 for each
stop payment.
15. Foreign Transactions. Purchases and Cash Advances made in
foreign countries and foreign currencies will be billed at a rate selected
by Visa from the range of rates available in wholesale currency markets
for the applicable central processing date, which rate may vary from the
rate Visa itself receives, or the government-mandated rate in effect for
the applicable central processing date; in each instance, plus or minus
any adjustment determined by the Issuer. The adjustment may show as
a separate entry on your account. You may be blocked from using your
card in any country with which the US has sanctions and or high fraud
countries.
16. Internet Transactions: You are blocked from using your card
on any internet gambling sites.
17. Merchant Disputes. We are not responsible for the refusal of
any merchant or financial institution to honor your Card or Visa
Convenience Checks.
18. Overdrafts. You may use your Visa Account as part of your
overdraft protection plan for your 7 17 Checking Account. Overdrafts
will be handled in accordance with our overdraft procedures as stated in

the Membership and Share Account Agreement and Disclosure that you
received when you opened your Account and/or by your overdraft
protection options that you signed with us.
19. Fees and Other Charges. The following fees and other charges
will be added to your Account, as applicable:
A. Annual Fee. None.
B. Late Payment Fee. If you fail to pay the minimum payment
on your Account within ten (10) days of the disclosed due date,
a late payment fee of up to $35 will be added to your Account.
C. Over-Limit Fee. If your balance exceeds your established
credit limit at any time during the statement period, an overthe-credit limit fee of up to $35 will be added to your Account.
Unless you provide us your consent, we will decline any
transaction that causes you to go over your established
credit limit. Only when you have opted-in to over-the-credit
limit transactions, through any of the options below, Seven
Seventeen may allow you to exceed your credit limit and
charge an over-the-credit limit fee of up to $35 for doing so.
Any over-the-limit fee charged to your account will appear on
your VISA® Statement. You will only pay one fee per billing
cycle, even if you go over your limit multiple times in the same
cycle. If you remain over your credit limit for the following
two (2) billing cycles, you will be charged an over-the-credit
limit fee in each billing cycle. Even if you request over-thecredit-limit coverage, in some cases we may still decline a
transaction that would cause you to go over your limit, such as
if you are past due or significantly over your credit limit.
Important: You have the right to revoke your over-the-creditlimit coverage at any time.
To authorize or rescind over-the-credit-limit transactions
on your Seven Seventeen VISA, simply:

Call us at any of these numbers: 330-372-8100, 330726-0344, 330-793-2495, 330-677-0001, 330-5349002, 330-492-1106, 330-298-0400, 800-775-7741

Visit any branch office (call or visit www.717cu.com
for locations)

Go to www.717cu.com to Opt in online.
You may not opt-in to over-limit transactions on Share
Secured VISA® cards. Based on your account status, we may
choose to not permit you to opt-in or we may opt you out of
the program.
D. Returned Payment Fee. If a payment is returned for any
reason, you will be assessed a $35.00 returned payment fee.
This fee may be added to your loan balance.
E. Card Replacement Fee. You will be charged $5 for each
replacement Card that is issued to you for any reason.
F. Application Fee. If, as a condition for opening your Account,
we require your Visa Account to be share-secured, you may be
charged an application fee of $25.
G. Cash Advance Fee. You will be charged a transaction fee of
3% of the Advance Amount for each Cash Advance (minimum
$2, maximum $15). You will be charged a transaction fee
(minimum $2, maximum $15) equal to 3% of the amount of
each Visa Convenience Check paid by us and posted to your
Account as a Cash Advance
H. Balance Transfer Fee. For each Balance Transfer completed
during the promotional introductory period, you will be
charged a transaction fee of 3% of the transfer amount, or $5,
whichever is greater. No Balance Transfer Fee will apply after
the promotional introductory period.
I.

Additional Charges. Whenever we are requested by you or
any other person not connected with us, to conduct any type of

research in connection with your Account, we will charge you
a fee of $12.50 per half hour for our research time and $.15 for
each page of copied material (except when the request is made
in connection with a billing error made by us).
J. Returned Statement Fee. You will be charged $3 for each
statement that is returned to us as undeliverable.
K. Copies of Visa Slips. You will be charged $10 for each copy
of a Visa slip that you request.
L. Stop Payment on Check. You will be charged $35 for each
stop payment made on your Visa Convenience Checks. If the
check is presented for payment you will be charged an
additional $5.
M. Transaction Fee for Purchase and Cash Advance Made in
Foreign Currency. You will be charged 3% of the amount of
foreign currency transaction after conversion to US dollars.
N. Transaction Fee for Purchase and Cash Advance Made in
a Foreign Country in US Currency. You will be charged 3%
of the amount of the transaction.
O. Priority Card Fee. $15.00
20. Skip Payment Option. We may allow you, from time to time, to
omit a monthly payment. We will notify you as to any month in which
the option is available. If you omit a payment, FINANCE CHARGES
and insurance premiums, if any, will accrue on your balance in
accordance with this Agreement. A skip payment does not extend the
period within which you must pay the New Balance Total in order to
completely avoid FINANCE CHARGES on purchases. A minimum
payment will be due in the month following the month in which you skip
your payment.
21. Effective Agreement. This Agreement is a contract which
applies to all transactions on your Account, even though the sales, Cash
Advances, credits or other slips you sign or receive, may contain
different terms. We may amend this Agreement from time to time by
sending you advance written notice as required by law. Your use of the
Card, or Visa Convenience Check, thereafter will indicate your
agreement to any such amendment. To the extent the law permits, and as
we indicate in our notice to you, amendments will apply to your existing
Account balance as well as to future transactions. This Agreement shall
be construed in accordance with the laws of the State of Ohio and
relevant Federal Laws.
22. Security Interest. You agree that the Credit Union has a security
interest in the account as identified in the Credit Card Application.
Further, you agree that future funds deposited in that account are also
subject to the Credit Union's security interest. In no event shall the Credit
Union take a security interest in Individual Retirement Accounts or other
accounts, which it is forbidden to attach by law. Collateral securing
other loans with us may also secure this loan.
23. Illegal use of Card. Any financial service provided by the Credit
Union may only be used for any transaction permitted by law. You agree
that illegal use of any financial service will be deemed an action of
default and/or breach of contract and such service and/or other related
services may be terminated at the discretion of the Credit Union. You
further agree, should illegal use occur, to waive the right to sue the Credit
Union for such illegal activity directly or indirectly related to it. You also
agree to indemnify and hold the Credit Union harmless from any suits or
other legal action or liability, directly or indirectly, resulting from such
illegal use. Such illegal use includes but is not limited to gambling and
any withdrawal of funds with the intent to conduct illegal activity. You
agree not to use your card or allow your card to be used for any illegal
transaction.
24. Transfer of Account. You cannot transfer or assign your account
to any other person.
25. ScoreCard Rewards. If you have our Platinum Rewards
Card; for every purchase you make you earn Bonus Points with the

ScoreCard Rewards program. Bonus Points are redeemable toward the
best in brand-name merchandise, cash, gift cards and travel awards. See
www.scorecardrewards.com for full details. Purchases made by or for a
business or for business purposes and unauthorized/fraudulent
transactions do not earn points. We may discontinue the Score Card
Rewards service at any time.
YOUR BILLING RIGHTS
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR
STATEMENT
If you think there is an error on your statement, write to us at:
Seven Seventeen Credit Union, Inc.
ATTN: VISA
3181 Larchmont Ave. NE
Warren, OH 44483-2498
You may also contact us on the Web: www.717cu.com
In your letter, give us the following information:
 Account information: Your name and Account Number
 Dollar amount: The dollar amount of the suspected error
 Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
 Within 60 days after the error appeared on your statement
 At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think
is wrong.
You must notify us of any potential errors in writing (or
electronically). You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in
question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
 Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
 Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as
delinquent on that amount.
 The charge in question may remain on your statement, and we
may continue to charge you interest on that amount
 While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
 If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.

If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR
CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services you have purchased
with your credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing (or electronically) at:
Seven Seventeen Credit Union, Inc.
ATTN: VISA
3181 Larchmont Ave. NE
Warren, OH 44483-2498
www.717cu.com
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
The Federal Equal Credit Opportunity Act prohibits creditors from discriminating against
any aspect of a credit transaction on the basis of race, color, religion, national origin, sex, marital
status or age (provided the applicant has the capacity to contract); or because all or part of the
applicants’ income derives from any public assistance program; or because the applicant has in
good faith exercised any right under the Consumer Credit Protection Act.

3181 Larchmont Ave NE
Warren, Ohio 44483 330-372-8100
www.717cu.com

T:Visa Disclosure 09-19
Rev: 09/27/19

